      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                               Washington, D.C. 20201




April 7, 2011

TO:             Yolanda J. Butler, Ph.D.
                Acting Director
                Office of Community Services
                Administration for Children and Families


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review at the Community Action Committee of
                Danbury, Inc. (A-01-10-02503)


The attached final report provides the results of our limited scope review at Community Action
Committee of Danbury, Inc. In accordance with the American Recovery and Reinvestment Act
of 2009, the Office of Inspector General (OIG) will provide oversight and audit of programs,
grants, and projects funded by the Act.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-01-10-02503
in all correspondence.


Attachment
Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




   RESULTS OF LIMITED SCOPE
   REVIEW AT THE COMMUNITY
     ACTION COMMITTEE OF
        DANBURY, INC.




                    Daniel R. Levinson
                     Inspector General

                        April 2011
                      A-01-10-02503
Department of Health
        Office           & Human
               of Inspector            Services
                                   General
                http://oig.hhs.gov
               OFFICE OF
        INSPECTOR GENERAL
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998, P.L. 105-285, authorized the Community Services Block Grant (CSBG) program to
provide funds to alleviate the causes and conditions of poverty in communities. Within the U.S.
Department of Health & Human Services, the Administration for Children and Families (ACF),
Office of Community Services administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. CAAs provide
services and activities addressing employment, education, housing, nutrition, emergency
services, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate causes and conditions of poverty in communities. CSBG Recovery Act funds
are distributed to CAAs using the existing statutory formula. Under the Recovery Act, CSBG
services may be expanded to those who are within 200 percent of the poverty line.

In Connecticut, the Department of Social Services (the State agency) acts as the lead agency for
carrying out State activities for the CSBG program. The State agency is responsible for
approving the State’s CAA Recovery Act grant applications and monitoring CAAs for
compliance with program regulations. The State agency was awarded an additional
$12 million in Recovery Act funds for the State of Connecticut’s CSBG program.

Community Action Committee of Danbury, Inc. (CACD), a nonprofit corporation, offers
services to low-income families and individuals. The agency is funded primarily through
Federal, State, and local grants. CACD was established in 1967 and currently serves 19 towns in
Northwestern Fairfield and Litchfield Counties in Connecticut. During fiscal year (FY) 2009,
the State agency awarded CACD with $310,037 in CSBG grant funds and a Recovery Act grant
totaling $507,448. The CSBG Recovery Act grant covers the period from July 1, 2009, through
September 30, 2010. For FY 2009, CACD received total Federal grant awards of $5,224,550.

OBJECTIVE

Our objective was to assess CACD’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG Recovery Act program in accordance with
Federal requirements.




                                                i
SUMMARY OF FINDINGS

Based on its current financial condition, CACD is financially viable. However, significant
operating deficiencies existed at CACD that impact its ability to manage and account for Federal
funds and its capability to carry out the CSBG Recovery Act program in compliance with
Federal requirements. Specifically, CACD did not ensure that:

   •   direct capital expenditures were approved in advance;

   •   its subcontract award contained evidence of competitive bidding, a description of
       services, and services were provided to eligible clients;

   •   its payroll distribution process provided an after-the-fact certification of actual activity
       performed by salaried employees;

   •   professional services and occupancy costs allocated to the CSBG Recovery Act program
       were supported properly; and

   •   its CSBG Recovery Act quarterly financial reports were supported by accounting records.

In addition, CACD did not fully comply with Federal requirements for segregation of duties and
insured bank deposits. The deficiencies occurred because CACD did not establish adequate
controls and procedures. As a result, CSBG Recovery Act funds may be at risk of not being
properly accounted for or expended in accordance with Federal requirements.

RECOMMENDATIONS

We recommend ACF work with the State to ensure that CACD establishes adequate controls and
procedures to comply with Federal requirements. In addition, we recommend that CACD make
financial adjustments or produce adequate documentation for unallowable services, activities,
and costs.

COMMUNITY ACTION COMMITTEE OF DANBURY, INC. COMMENTS

In written comments to our draft report, CACD generally concurred with our recommendations.
However, CACD did not concur with one recommendation, stating that it has provided adequate
documentation to show it has removed unallowable fundraising activities and has charged the
CSBG Recovery Act appropriately. CACD’s comments are included in their entirety as
the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CACD’s comments, we recommend ACF work with the State to determine
whether CACD has provided adequate documentation to show that it has not charged the CSBG
Recovery Act for unallowable fundraising activities.


                                                  ii
                                                  TABLE OF CONTENTS

                                                                                                                        Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1
              Community Services Block Grant ...........................................................1
              Connecticut Department of Social Services ............................................1
              Community Action Committee of Danbury, Inc. ....................................1
              Federal Requirements ..............................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................2
               Objective ..................................................................................................2
               Scope ........................................................................................................2
               Methodology ............................................................................................2

FINDINGS AND RECOMMENDATIONS ................................................................3

          DIRECT CAPITAL EXPENDITURES ..............................................................4
               Federal Requirements ..............................................................................4
               Unapproved Capital Expenditures ...........................................................4

          PROCURING SUBCONTRACT SERVICES ....................................................4
               Federal Requirements ..............................................................................4
               Lack of Competitive Bids and Unsupported Subcontract Costs ..............5

          PAYROLL DISTRIBUTION SYSTEM .............................................................5
              Federal Requirements ..............................................................................5
              Inadequate Payroll Distribution Process ..................................................5

          PROFESSIONAL SERVICES AND OCCUPANCY COSTS............................6
               Federal Requirements ..............................................................................6
               Improper Professional Services and Occupancy Costs............................6

          FINANCIAL REPORTING.................................................................................7
               Federal Requirements ..............................................................................7
               Quarterly Expenditure Report Not Supported .........................................7




                                                                    iii
    SEGREGATION OF DUTIES ............................................................................7
         Federal Requirements ..............................................................................7
         Lack of Segregation of Duties .................................................................8

    BANK DEPOSITS...............................................................................................8
         Federal Requirements ..............................................................................8
         Uninsured Bank Deposits ........................................................................8

    RECOMMENDATIONS .....................................................................................9

    COMMUNITY ACTION COMMITTEE OF
        DANBURY, INC. COMMENTS ............................................................10

    OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................10

APPENDIX

    COMMUNITY ACTION COMMITTEE OF DANBURY, INC. COMMENTS




                                                          iv
                                       INTRODUCTION

BACKGROUND

Community Service Block Grant

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998, P.L. 105-285, authorized the Community Services Block Grant (CSBG) program to
provide funds to alleviate the causes and conditions of poverty in communities. Within the U.S.
Department of Health & Human Services, the Administration for Children and Families (ACF),
Office of Community Services administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. CAAs provide
services and activities addressing employment, education, housing, nutrition, emergency
services, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
states to alleviate causes and conditions of poverty in communities. CSBG Recovery Act funds
are distributed to CAAs using the existing statutory formula. Under the Recovery Act, CSBG
services may be expanded to those who are within 200 percent of the poverty line.

Connecticut Department of Social Services

The Connecticut Department of Social Services (the State agency) acts as the lead agency for
purposes of carrying out State activities for the CSBG program. The State agency is responsible
for approving the State’s CAA Recovery Act grant applications and monitoring CAAs for
compliance with program regulations. The State agency was awarded with an additional
$12 million in Recovery Act funds for the State of Connecticut’s CSBG program.

The State agency contracts with CAAs for CSBG Recovery Act funding. Contracts with CAAs
contain provisions stating that contractors (i.e., CAAs) understand and agree that they shall be
liable for any State or Federal audit exceptions and shall return to the State agency all payments
to which exception has been taken or which have been disallowed because of such an exception.

Community Action Committee of Danbury, Inc.

Community Action Committee of Danbury, Inc. (CACD), a nonprofit corporation, offers
services to low-income families and individuals. CACD is funded primarily through Federal,
State, and local grants. CACD also receives grant funds from private sources to supplement
Federal and State funding. CACD was established in 1967 and currently serves 19 towns in
Northwestern Fairfield and Litchfield Counties in Connecticut. During fiscal year (FY) 2009,
the State agency awarded CACD with $310,037 in CSBG grant funds and a Recovery Act grant
totaling $507,448. The CSBG Recovery Act grant covers the period from July 1, 2009, through
September 30, 2010. For FY 2009, CACD received total Federal grant awards of $5,224,550.



                                                1
Federal Requirements

Pursuant to 45 CFR part 74, grantees and subgrantees of Federal awards must implement written
accounting policies and procedures and maintain financial systems that provide for accurate and
complete reporting of grant-related financial data, effective control over grant funds, and
allocation of costs to all benefitting programs. In addition, grantees must establish written
procurement procedures. Grantees are also required to maintain inventory control systems and
take periodic physical inventory of grant-related equipment. Pursuant to 45 CFR § 74.27, the
allowability of costs incurred by nonprofit organizations is determined in accordance with the
provisions of Office of Management and Budget (OMB) Circular A-122, Cost Principles for
Nonprofit Organizations. The CSBG Act establishes the CSBG program and sets the
requirements and guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess CACD’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG Recovery Act program in accordance with
Federal requirements.

Scope

We conducted a limited review of CACD’s financial viability, financial management system, and
related policies and procedures. This limited-scope review is part of a series of reviews planned
by the Office of Inspector General (OIG) to provide oversight of funds provided by the Recovery
Act. Therefore, we did not perform an overall assessment of CACD’s internal control structure.
Rather, we reviewed only the internal controls that pertained directly to our objective. Our
review period for the CSBG Recovery Act program was from inception on July 1, 2009, through
April 30, 2010.

We performed fieldwork at CACD’s facility in Danbury, Connecticut, during May 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that CACD is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed CACD’s application and implementation of the grant awards for Recovery
        Act funding;

   •    reviewed the findings related to the most recent State review dated October 31, 2006;


                                                2
   •   reviewed CACD’s policies and procedures related to the CSBG program;

   •   reviewed CACD’s by-laws, minutes from Board of Directors meetings, composition of
       the Board, and organizational chart;

   •   performed audit steps to assess the adequacy of CACD’s current financial systems;

   •   reviewed CACD’s audited financial statements and audits conducted pursuant to
       OMB A-133 for FYs 2007 through 2009;

   •   performed liquidity and stability analysis of CACD’s finances for FYs 2006 through
       2009 to determine whether CACD was financially viable;

   •   reconciled CACD’s CSBG Recovery Act quarterly expenditure report for the period
       ended March 31, 2010, to its official accounting records and judgmentally selected line
       items transactions to determine if costs claimed were in accordance with Federal
       requirements and CACD policies and procedures; and,

   •   discussed findings with CACD officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Based on its current financial condition, CACD is financially viable. However, significant
operating deficiencies existed at CACD that impact its ability to manage and account for Federal
funds and its capability to carry out the CSBG Recovery Act program in compliance with
Federal requirements. Specifically, CACD did not ensure that:

   •   direct capital expenditures were approved in advance;

   •   its subcontract award contained evidence of competitive bidding, a description of
       services, and services were provided to eligible clients;

   •   its payroll distribution process provided an after-the-fact certification of actual activity
       performed by salaried employees;

   •   professional services and occupancy costs allocated to the CSBG Recovery Act program
       were supported properly; and

   •   its CSBG Recovery Act quarterly financial reports were supported by accounting records.


                                                  3
In addition, CACD did not fully comply with Federal requirements for segregation of duties and
insured bank deposits. The deficiencies occurred because CACD did not establish adequate
controls and procedures. As a result, CSBG Recovery Act funds may be at risk of not being
properly accounted for or expended in accordance with Federal requirements.

DIRECT CAPITAL EXPENDITURES

Federal Requirements

Pursuant to OMB A-122, Attachment B, selected items of costs, paragraph 15.b.(1), capital
expenditures for general-purpose equipment are unallowable as direct charges, except where
approved in advance by the awarding agency. Furthermore, OMB A-122, Attachment A.4.,
states that a cost is allocable to a particular cost objective, such as a grant, contract, project,
service, or other activity, in accordance with the relative benefits received. A cost is allocable to
a Federal award if it is incurred specifically for the award.

Unapproved Capital Expenditures

CACD did not ensure that the State agency approved in advance capital expenditures directly
charged to the CSBG Recovery Act program. For example, in the quarter ended March 31,
2010, CACD purchased and improperly charged the CSBG Recovery Act program for
unapproved office furniture totaling $26,400, of which CACD claimed $12,268.

The deficiencies occurred because CACD did not have adequate controls to ensure that
unauthorized costs are not charged to the CSBG Recovery Act program. As a result, CSBG
Recovery Act funds may be at risk of not being accounted for properly or expended in
accordance with Federal requirements.

PROCURING SUBCONTRACT SERVICES

Federal Requirements

Pursuant to 45 CFR § 74.43, all procurement transactions shall be conducted in a manner to
provide, to the maximum extent practical, open and free competition. In addition, CACD
procurement procedures require that all purchases must have a requisition with a description of
the item to be procured. Purchases over $2,000 require three competitive bids.

Furthermore, 45 CFR § 74.51(a) on monitoring and reporting program performance states that
recipients are responsible for managing and monitoring each project, sub-award, function, or
activity supported by the award.

Under the Recovery Act, CSBG services may be provided to those who are within 200 percent
of the poverty line. Furthermore, OMB Circular A-122, Attachment A, part A, § 2 on factors
affecting allowability of costs states that to be allowable under an award, costs must be
documented adequately.



                                                  4
Lack of Competitive Bids and Unsupported Subcontract Costs

CACD entered into a subcontract agreement for job readiness and training services to facilitate
employment for eligible clients. This agreement exceeded specified thresholds without adequate
evidence of competitive bidding or a clear and accurate description of the technical requirements
and scope of services for the material(s), good(s), or service(s) to be procured. In addition,
CACD made payments to the subcontractor without adequate evidence of services rendered to
eligible clients. For example, the subcontractor submitted two invoices totaling $10,554 in
claims against the Recovery Act for the quarter ended March 31, 2010, that were not supported
by program information, statistics reflecting the progress and outcome of each client, attendance
records, the number of participants in class, and the participants who left the course. This
information is required under the subcontract agreement.

CACD did not have adequate controls to ensure that it complied with Federal requirements and
its own procurement requirements for price competition. In addition, CACD had not established
procedures for monitoring subcontract performance. As a result, there is no assurance that the
CSBG Recovery Act program benefitted from quality services obtained in a cost effective
manner and that services were provided as required and to eligible clients only.

PAYROLL DISTRIBUTION SYSTEM

Federal Requirements

Pursuant to OMB A-122, Attachment B, paragraph 8.m., the distribution of salaries and wages
must be supported by personnel activity reports. The activity reports maintained by nonprofit
organizations must meet the following standards:

   •   reflect an after-the-fact distribution of the actual activity of each employee,

   •   account for the total activity for which each employee is compensated,

   •   be signed by the employee or by a responsible supervisory official having firsthand
       knowledge of the activities performed, and

   •   be prepared at least monthly and coincide with one or more pay periods.

In addition, OMB A-122, Attachment B, paragraph 17 on fundraising costs states that costs of
organized fundraising, including financial campaigns, endowment drives, solicitation of gifts
and bequests, and similar expenses incurred solely to raise capital or obtain contributions
are unallowable.

Inadequate Payroll Distribution Process

CACD did not ensure that its payroll distribution process provided an after-the-fact certification
of actual activity performed by employees; rather, CACD allocated employee efforts based on a
predetermined budget. In addition, CACD’s Recovery Act program budget shows a total of

                                                 5
$57,547 related to its planning component that included fundraising activity. Although OIG
requested it, CACD did not provide sufficient information to demonstrate whether these
activities are eligible for Federal reimbursement.

CACD did not have adequate procedures to ensure that its payroll distributions process
(1) reflects actual work performed by staff at least on a monthly basis and (2) identifies and
segregates unallowable activity. As a result, CACD’s payroll distribution process does not
properly account for Federal funds nor provides for current, accurate, and complete results of
CSBG Recovery Act activity.

PROFESSIONAL SERVICES AND OCCUPANCY COSTS

CACD did not ensure that professional services and occupancy costs charged to the CSBG
Recovery Act program had been allocated on an equitable basis.

Federal Requirements

OMB Circular A-122, Attachment A, part A, § 2 on factors affecting allowability of costs states:

       To be allowable under an award, costs must meet the following general criteria … be
       reasonable for the performance of the award and be allocable thereto under these
       principles … be determined in accordance with generally accepted accounting principles
       (GAAP) … be adequately documented.

Furthermore, section 4, on allocable costs states:

       A cost is allocable to a particular cost objective, such as a grant, contract, project, service,
       or other activity, in accordance with the relative benefits received.

Improper Professional Services and Occupancy Costs

CACD charged unreasonable amounts for professional services and charged unsupported
occupancy costs to the CSBG Recovery Act program. Specifically:

   •   CACD charged $8,300 of the $18,365 (45 percent) it incurred in for FY 2009 accounting
       and auditing services costs to the CSBG Recovery Act program even though the CSBG
       program only accounted for .2 percent of total FY 2009 expenditures. CACD charged the
       financial and accounting services costs to the CSBG Recovery Act program based on
       estimates. If it allocated these costs based on total expenditures, the CSBG Recovery Act
       would have been charged only $37.

   •   CACD charged $8,650 in rent and $1,524 in utilities to the CSBG Recovery Act program
       based on estimates. CACD could not provide any evidence to show that it used an
       equitable basis such as square footage for allocating costs.




                                                  6
CACD did not establish procedures for allocating professional services and did not comply with
its procedures for allocating occupancy costs based on square footage. As a result, CACD over
charged the CSBG Recovery Act program $8,263 ($8,300 – $37) in professional services and up
to $10,174 ($8,650 + $1,524) in occupancy costs that could not be supported.

FINANCIAL REPORTING

Federal Requirements

Pursuant to 45 CFR § 74.21(b), recipients’ financial management systems shall provide for
accurate, current, and complete disclosure of the financial results of each HHS-sponsored project
or program. In addition, if the HHS awarding agency requires reporting on an accrual basis from
a recipient that maintains its records on other than an accrual basis, the recipient shall not be
required to establish an accrual accounting system. These recipients may develop such accrual
data for their reports based on an analysis of the documentation on hand.

In addition, OMB Circular A-122, Attachment A, part A, § 2 on factors affecting allowability of
costs states that to be allowable under an award, costs must be determined in accordance with
generally accepted accounting principles and be adequately documented.

Quarterly Expenditure Report Not Supported

CACD did not ensure that CSBG Recovery Act quarterly financial reports were supported by
accounting records. Specifically, CACD’s March 31, 2010, quarterly report showed $124,302 in
cumulative Recovery Act expenditures. However, CACD’s accounting ledger records showed a
higher amount of $138,435 in Recovery Act expenditures. The difference of $14,133
($138,435 – $124,302) was not reconciled nor explained by CACD. Our analysis revealed that
this difference consisted of the unapproved capital equipment (office furniture) expenditures
charged directly to the CSBG Recovery Act program per its ledger, but the charge had not been
included in CACD’s March 31, 2010, quarterly expenditure report.

CACD has not established procedures for the preparation of quarterly expenditure reports. As a
result, CACD’s quarterly expenditure reports do not reflect current, accurate, and complete
results of CSBG Recovery Act activity.

SEGREGATION OF DUTIES

Federal Requirements

Pursuant to 45 CFR § 74.21(b)(3), recipients’ financial management systems shall provide for
effective control over and accountability for all funds, property, and other assets.




                                                7
Lack of Segregation of Duties

CACD lacks adequate segregation of duties in its human resources and accounting units relating
to payroll, accounting, and procurement functions:

   •   The human resources unit consists of one employee who is also responsible for payroll
       processing. This individual is responsible for both reviewing employee timesheets and
       submitting payroll data to the payroll-processing center. CACD does not require another
       responsible official to review or approve payroll accuracy. There is also a lack of
       segregation in that this individual receives the checks from the payroll-processing center
       and hands out the checks to employees. Finally, this individual also performs
       reconciliations of payroll-processing center reports and records payroll journal entries
       into the computerized accounting system.

   •   An individual in the accounting unit performs incompatible accounting, purchasing,
       disbursement, and property management functions. This individual prepares all purchase
       orders, records purchases, performs bank reconciliations, and has receipt and
       disbursement responsibilities (including receiving, depositing, recording, and
       safeguarding checks). This individual also manages physical inventory, reconciliation,
       and the asset list.

CACD does not have adequate policies and procedures on segregation of duties. As a
result, CACD cannot ensure that it is safeguarding all assets adequately.

BANK DEPOSITS

Federal Requirements

Pursuant to 2 CFR 215.21(b)(3), recipients’ financial management systems shall provide for
the effective control of funds and assets and shall adequately safeguard all such assets.

Pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain advances of
Federal funds in insured accounts whenever possible. Federal Deposit Insurance Corporation
(FDIC) policy states that deposits owned by a corporation, partnership, or unincorporated
association are insured up to $250,000 at a single bank.

Uninsured Bank Deposits

CACD did not ensure that it met Federal requirements for maintaining bank deposits in insured
accounts. CACD frequently held money in banks that was over the FDIC insured amount.
CACD currently uses one bank for all deposits. The amounts of uninsured deposits ranged from
about $700,000 to $1.3 million.

CACD did not establish procedures to maintain deposits in insured accounts. The annual audited
financial reports for 2007 through 2009 reported this as a weakness. As a result, cash deposits in


                                                8
excess of the FDIC insurance limit of $250,000 are at a potential risk of loss in the event of
bank failure.

RECOMMENDATIONS

We recommend ACF work with the State to ensure that CACD:

   •   Provide evidence of prior approval or make a financial adjustment for all capital
       equipment expenditures that have not been approved in advance by the State agency,
       including $12,268 identified in this report;

   •   establish adequate controls to ensure that unapproved capital equipment costs are not
       charged to Federal programs;

   •   provide supporting documentation or make a financial adjustment for subcontract costs
       that cannot be supported by evidence of services rendered to eligible clients, including
       $10,554 identified in this report;

   •   establish adequate controls to ensure compliance with competitive-bidding procedures
       and procedures for monitoring subcontract performance including evidence of services to
       eligible clients;

   •   establish procedures to ensure that its payroll-distributions process reflects actual work
       performed by staff;

   •   provide justification for all or part of $57,547 identified in this report as unallowable
       fundraising activities or make a financial adjustment;

   •   establish procedures to identify and segregate fundraising activity;

   •   provide support for equitable allocations or make financial adjustments for unreasonable
       professional services and unsupported occupancy costs, including $18,437 identified in
       this report;

   •   establish procedures and controls to allocate professional services and occupancy
       costs equitably;

   •   establish procedures to ensure that quarterly expenditure reports reflect current, accurate,
       and complete results of program activity;

   •   establish controls that are approved by CACD’s Board of Directors to ensure proper
       segregation of duties; and

   •   establish procedures to ensure that Federal funds are maintained in insured accounts.



                                                 9
COMMUNITY ACTION COMMITTEE OF DANBURY, INC. COMMENTS

In written comments to our draft report, CACD generally concurred with our recommendations.
However, CACD did not concur with one recommendation, stating that it has provided adequate
documentation to show it has removed unallowable fundraising activities and has charged the
CSBG Recovery Act appropriately. CACD’s comments are included in their entirety as
the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CACD’s comments, we recommend ACF work with the State to determine
whether CACD has provided adequate documentation to show that it has not charged the CSBG
Recovery Act for unallowable fundraising activities.




                                            10
APPENDIX
                                                                                                                 Page 1 of 4

                               APPENDIX: COMMUNITY ACTION COMMITTEE OF DANBURY INC.
                                                    COMMENTS     '            '

                                                                   Community Action Committee of Danbury, Inc.
                                                                             Danbury, Connecticut

                  Response to Department Of Health and Human Services Report Number: A-OI-I0-02S03
                                                 .   Submitted by
                                                    Bobby J. Poole
                                                   Executive Director


        March 9, 2011



        Mr. Michael J . Armstrong, Regionallnspector Genera! for Audit Services . 

        Department of Health & Human Services 

        Office of Audit Services, Region I 

        John F. Kennedy Federal Building, Room 2425 ' 

        Boston, MA 02203 




        Re: Results of Limited Scope Review at the Community Action Committee of Danbury, Inc . 

        Report A-O 1- 10-02503 




        Dear Mr. Armstrong:
        Attached is the Community Action Committee of DanburY,lnc.'s response to the recommendations
        contained in the 'above report. I would also like. to remind the Agency that during 2010. CACD
        submitted extensive documentation in ·support of our actions regarding these recommendations. I
        would like to inquire how that documentation will be used . CACD is committed to the highest level of
        transparency and compliance with Federal, State and its own Administrative and Financial Procedures, .
                                              "'~'l '
        Sincerely,                        ///,
    /
        /<"j'
           j '_,,/
                         /lI ifIY-\!/// 1//7
                          I
 f...
         '1Y ////'       '1'k.fli1.1" f.,/,/ ' /~el,'V'/1/12:.,­
                   t/;f{.J;,
         '/.        e '         AI ' .'

        ~bbby J . ~n0're 

         Executive Director




         cc: Glenda' Armstrong
          President of the Board of Directors
         The Community Action Committee of Danbury, Inc.



66 North Street, Danbury, Connecticut 06810 • phone 203-744-4700 • fqx 203-790-9693 • www.cacd-caa .org
(   .. 
                                                                                     Page 2 of 4




           March 9, 2011




                                            RECOMMENDATIONS


              1. 	 Provide evidence of pri or approval or make a fina ncial adjustment for all capital
                 equipment expenditures that have not been approved in advance by the State Agency,
                 includ ing $12,268 identified in t his report .


                 CACD RESPONSE: Concur: CACD's initial budget request for capital expenditures was
                 submitted for approval to the State Agency but CACD did not gain advanced approval
                 of the increased costs of capital expenditures. CACD will comply with Federal and
                 State and CACD Financial and Administrative procedures requiring advance approval
                 of capital expenditures based on contract and expenditure levels.


              2. 	 Establish adequate controls that unapproved capital equipment costs are not charged
                 to Federal Programs .


                 CACD RESPONSE: Concur: Unapproved capital equipment purchases have not been
                 charged to the Federal Program. They have been charged to unrestricted Agency
                 Revenue. General ledger documents support that action and have been verified by
                 CACD's independent auditor.


              3. 	 Provide supporti ng documentation or make a financial adjustment for subcontract costs
                 that cannot be su pported by evidence of services rendered to eligible cl ients, including
                 $10,544 identifi ed in this report .


                 CACD RESPONSE: Concur: CACD has collected all supporting documentation for
                 subcontractor costs that defines and supports services rendered to eligible clients . All
                 subcontractor costs that cannot be supported or services identified to ineligible clients
                 have been identified and charged appropriately; they have been verified by Studley
                 and White, the Independent Auditor for CACD's CSBG ARRA Program Expenditures.
                                                                                     Page 3 of 4
{





     4. 	 Establish adequate controls to ensure compliance with competitive-bidding procedures
        and procedures for monitoring subcontract performance including evidence of services
        to eligible clients.

        CACD RESPONSE: Concur: Subcontractor service fees were approved by State
        Agencies and subcontractors were on a list of approved contractors for the training
        and educational services provided.

     5. 	 Establish procedures to ensure that its payroll-distributions process reflects actual work
         performed by staff.

        CACD RESPONSE: Concur: CACD has amended its t i me sheets to incorporate
        identification of employee's time on a program basis. Time is tracked on employee
        time utilization for programs and projects.

     6. 	 Provide justification for all or part of $57,547 identified in this report as unallowable
        fundraising activities or make a financial adjustment.

        CACD RESPONSE: Non-concurrence: CACD has provided general ledger
        documentation and time sheet verification that all fundraising activities by employees
        and associated employee expenses have been removed and charged appropriately
        and verified by CACD's Independent Auditor.

     7. 	 Establish procedures to identify and segregate fundraising activity.

        CACD RESPONSE: Concur: See response in recommendations #5 and 6.

     8. 	 Provide support for equitable allocations or make financial adjustments for
        unreasonable professional services and unsupported occupa ncy costs, including $18,437
        identified in this report.

        CACD RESPONSE: Concur: Independent Auditing costs were identified and approval
        gained from State Agencies for CACD's CSBG ARRA Program Expenditures. Occupancy
        costs have been calculated on a space or program benefit usage and Costs Allocation
        Procedures t o reflect the occupancy costs are being implemented.

     9. 	 Establish procedures and controls to allocate professional services and occupancy costs
        equitably:
    .',"                                                                              Page 4 of 4
{   •

              CACD RESPONSE: Concur: The guidelines referred to in response to the
              recommendation will become part of CACD's Administrative and Financial Procedures
              Manual.

           10. Establish procedures to ensure that quarterly expenditure reports reflect current,
              accurate and complete results of program activity;

              CACD RESPONSE: CACD reports all of its quarterly expenditure activity on an accrual
              basis in compliance with State and Federal contractual requirements.

           11. Establish controls that are approved by CACD's Board of Directors to ensure proper
              segregation of duties;


              CACD RESPONSE: Concur: CACD has conducted an independent audit of its CSBG
              ARRA Program Expenditures and is in the process of conducting an independent audit
              of its 2010 fiscal year. Upon its completion, Administrative and Financial Procedures
              will be submitted to the Board of Directors for approval.


           12. Establish procedures to ensure that Federal Funds are maintained in insured accounts.

              CACD RESPONSE: Concur: CACD is working with three financial institutions to
              diversify accounts and ensure that all Federal Funds are insured.
